No.20-1249

In the

Supreme Court ofthe United States
a

GARY VICTOR DUBIN,

Petitioner,
v.
OFFICE OF DISCPLINARY COUNSEL,

Respondent.
a

MOTION FOR LEA\M TO FILE A}I AI\{ICUS
BRIEF ON BEHALF OF HUI{DREDS OF
PETITIONER'S CLIENTS HAVING BOTH
INDEPENDENT STAI{DING AT.ID ADDITIONAL
REASIONS SUPPORTING GRANTING REIITEW

I

GARvVrcron DusD{
Counsel of&ecord
Dushr Lew Orrrcns
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (8os) 537-2300
Facsimile: (S08) 523-7799
Cellular: (aos) 392'9191
E -Mail: gdubin@dubinlaw.net

Attoney for Client Amici

MOTION FOR LEAVE TO FILE AI{ AI\{ICUS
BRIEF ON BEHALF OF HUNDREDS OF
PETITIONER'S CLIENTS HAVING BOTH
INDEPEND ENT STA\IDING A}.ID ADDITIONAL
REA,SONS SUPPORTING GRANTING REITTEW
Hundreds of Petitioner's Clients ("Clients"), many
named in Exhibit 1 attached to this Motion, too
numerous a class to include in the caption of this
matter, respectfully move this Court, pursuant to
Rule 37.26), for leave to file an Amicus Brief which
is also attached in support of the Petition for Writ of
Certiorari docketed in Case No. 20-1249.

This Motion is timely filed on March 22,202L as
the Petition was filed on February 25, 202I.
Petitioner consents to the fiIing, but Respondent,
receiving timely notice, has not approved.

If this Motion is granted, Clients will bring to the
Court's attention the following additiona,/ matters of
great independent urgency beyond what is presented
in the Petition, deserving to be high on Your Agenda,
more fully described in the attached Amicus Brief:

I. The Protection Of Petitioner's

Clients Requires
are real parties
Review.
Clients
Appellate
Granting
in interest having separate, independent standing,
entitling them to support the Petition, heretofore
ignored, unable to defend their constitutional rights,
not named as parties, while cavalierly denied formal
notice and any participation in the underlying
disbarment proceedings, being victims nevertheless,
highly prejudiced by the disbarment, having had
their cases thereby disrupted and their investment
in Petitioner's legal services lost, Ieft foundering.
1

2. The Protection Of The Public's Constitutional
Rights Requires Granting Appellate Review. There
is strong public interest in having this Court grant
review, not only on Client's behalf, but also on behalf
of hundreds of thousands of homeowners, similarly

situated annually, whose foreclosure defense
attorneys continue to be unfairly disbarued
nationally, state by state, by an autocratic state

attorney disbarment system exactly as described in
the Petition in Hawaii, otherwise thus far immune,
evading any meaningful appellate, error correction
or oversight enforcement of constitutional rights.

3. Ihe fuotection Of Access To Justice For
MilLions Of Homeowners Requires Granting

Appellate Review. The general public and their
families, in even more growing numbers as an
aftermath of the current pandemic, continue to face
foreclosure and eviction, unable to find
representation, denied 'Access to Justice," clogging
our courts with pro se litigants, since such unfair
disbarments, presently effectively unreviewable, are
discouraging attorneys from representing
homeowners especially on a pro bono basis as

Petitioner had been doing, otherwise risking
arbitrary loss of their law licenses, not being allowed
any appellate oversight except in this usually nonerror-correcting Court, while other professionals
such as physicians are allowed full review unequally.
Respectfully submitted,

/s/ Gary VictorDubin
GARY VICTOR DUBIN
Honolulu, Hawair Counsel of Record
Attorney for Client Amici
March 22,2021
2

EXHIBIT

1

CLIENT AN{ICI

CHRISTIE ADAMS; TORU AKEHI; GWtrN ALtrJO-HERRING;

GLORIA ALMENDARES; JERIS YUKIO AMAZAKI; DEBRA
ANAGARAN; DIRK APAO; MARGARET APAO; JERRY BADUA; JULIA

BADUA; LIAO LUCY BAMBOO; MIA BAN; ROMAN BAPTISTE;
CHARLES BASS; LAURA BASS; AGRIPINO PASCUA BONILLA;
RUTH ROJAS BONILLA; SHtrRILYN MAY ROJAS BONILLA; KANOA
ROSS BRISTOL; DONNA BROOKS; DAVID R. BROWN; REYNALDO

CABUDOL; CHRISTY CARRICO; PHINtrAS CASADY; JOYCE
CHANDLER; WILLIAM CHANDLER; JENNIFER CHAPMAN;
STEPHEN CHtrIKtrS; MERVIN HALFRtrD NAtrA CHING; LUCIA

CHING; SUTAH CHIRAYUNON; SEUNG CHOI;

BRETT

CHRISTIANSEN; AH MEI CHUN; HUGH JOHN COFLIN; JANtrT

COFLIN; RUSSEL COLE; PAUL COLLINS; WATOSHNA LYNN

COMPTON; GEORGE COSTA; GREGORY CLYDE SOUZA
CRAVALHO; TONI NOtrLANI CRAVALHO; ROGER CUNDALL; ERIC

LEE DAVIES; WILLIAM DAVIS; VANDETTA DAVIS; YUKIKO
HAYASHI DAY; PAIGE Dtr PONTE; F'ATIMA DUNCAN; CAROLINA

CABUDOL trALA; EDWIN PAET EALA; DAVID WENDELL ELLIS;

LORI LYNN ELLIS; JANICE ELLISON; SCOTT ELLISON; NtrLIE
BANIAGA ESCALANTE; NORBERTO RAMELB ESCALANTE; ELENA
F'trDOROVA;

JOHN

J.

AKIKO FERGERSTROM; JUSTIN

FREEPARTNER

F'ERGERSTROM;

III; LISA MARIE FREEPARTNER;

MICHAEL J. FUCHS; IRENE SAJOR GANO; ROYD ALLEN GANO;

EDNA GANTT; PAUL GANTT; LEAH GILLESPIE;

ROBERT

GILLESPIE; ELIZAB TH GILLETTE; DAVID GOODWIN; MALIA

GRACE; ANTONIO GRAFILO; NELIA GRAF'ILO; HOWARD
GREENBERG; KENNETH HAGMANN; MICHAEL JON HAMMER;
DARRYL HASHIDA; SEAN HAYWORTH; NICOLtr F'LORES HOSAKA;

TOD HOSAKA; CHRISTIAN JENSEN; DAVID KAPLAN; DONALD
KARLEEN; BEATA KARPUSIEWICZ; JAROSLAW KARPUSIEWICZ;
ELEANA KtrAHI; WONNE KtrAHI; KEITH KIMI; OTELIAH KIND;

KORY KLtrIN; MARY KNUDSEN; RALPH KNUDSEN; LENORE

LANNON; ROBERT LANNON; STEPHEN LAUDIG; MALLORY
ASPILI LONGBOY; SHARI ARAKAWA LONGBOY; F'RANK JAMES

LYON; ERIC MADER; AMY KATHLEtrN MAHER; MICHAEL

CHARLES MAHER; GWEN MARCANTONIO;

MARK

MARCANTONIO; ARMAND MARIBOHO; DARLA MARIBOHO;

MARYELLEN MARKLEY; LAURA MARQUES; WILLIAM
MCTHEWSON; EMILOU N.A. MIKAMI; RICKEY R. MIKAMI; TROY

MIZUKAMI; JONNAVEN JO MONALIM; MISTY MARIE MONALIM;
ROBERT-GAVIN MOORE; TERESA MOORE; THOMAS MORTON;

TERRY LYNNE OHARA MOSELEY; WONNE NIELSEN; AILYN
OUNYOUNG; SAMRIT OUNYOUNG; DAVID

L. OWLES; LORI Y.

OWLES; RAQUEL PACHECO; JOHN PERREIRA; ROSE PtrRRtrIRA;

MICHAEL PIERCE; MARIO PORTILLO; EBONI PRtrNTICE;
ROSARIO RAMOS; LURLINE RAPOZA; MERRILLYN M.J.L. RAPOZA;

JOHN RIDDEL, JR.; JEANETTE ROStrHILL; MARCUS ROSEHILL;

RAY J. RUDDY; MICHELE COLLEEN RUNDGREN;

TODD

RUNDGREN; JO RUSSO; KELLY KALANIKAPULAHA'OLE
SAMPAIO; RICHARD MILIKONA SAMPAIO, JR.; JOHN SAVAGE;
RONALD SCHRANZ; JOHN SHIGEMURA; JASON SIEGFRIED;

MELEANA SMITH; JODY SOLBACH; ELIZABETH

SPECTOR;

DANIEL JOSEPH SPENCE; ELAINE DAMLOA SPENCE; EILtrEN
EVELYN STEPHENSON; CONNIE SWIERSKI; DAVID SWIERSKI;

BONNIE SWINK; JACK SWINK; EVBLYN TAKENAKA; NADINE

TAMAYOSE; REID TAMAYOSE; KARRI TESHIMA; CLOVER THEDE;

DYLAN THEDE; LANA M. TOLEAF.OA; SAUMANI LOPI TOLEAFOA;

BRUCE ROBERT TRAVIS; trLISE TRAVIS; DARREN TSUCHIYA;

LANCE TSUCHIYA; MALIA OLIVAS TSUCHIYA; ANTHONY
TUCKER; GLADYS TUPULUA; HBDY UDARBtr; RUSTICO UDARBtr;

VALERIE ITYEDA; EDWARD VALLEJO; JON VAN CLEAVE, M.D.;

PATRICK VERHAGEN; STEPHEN WARD; DONOVAN WEBB;
VALtrRIE WOODS; JACK YOUNG; and NANCY PATSY YOUNG,

